Inspection Report No. OIG-INS-06-00-03: Accounting and Reporting Systems in the Brooklyn Regional Office
Inspection Report No. OIG-INS-06-00-03 Accounting and Reporting Systems in the Brooklyn Regional Office
UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General
Memorandum
July 6, 2000
To: Alvin P. Blyer
Regional Director, Region 29
From: Jane E. Altenhofen
Inspector General
Subject: Inspection Report No. OIG-INS-06-00-03: Accounting and
Reporting Systems in the Brooklyn Regional Office
This inspection was conducted in conjunction with our audit of the
National Labor Relations Board's Fiscal Year 1999 accounting and reporting
systems. We selected four Regional Offices, including Region 29, the
Brooklyn Regional Office (Brooklyn), on a judgmental basis. Our objective
was to review functions that could affect the Agency's ability to prepare
audited financial statements including financial management, backpay, time
and attendance (T&A), and capitalized and sensitive property.
We did not identify anything adversely impacting the Agency's ability
to prepare audited financial statements based upon Brooklyn's financial
management. We also determined that procedures provided reasonable
assurance that the management of backpay meets Agency objectives.
We did, however, identify several reportable issues. The computer
inventory did not accurately identify what equipment was assigned to
Brooklyn or the location of the equipment within the office. Documentation
supporting written approval of flex-time, compressed work schedules, the
work-at-home program, and advance sick leave was not consistently
maintained. Brooklyn did not consistently use leave request forms to
document leave usage. Employees were allowed to accrue compensatory time
in excess of Agency limits. Bi-weekly T&A reports were not initialed
by the employee, timekeeper, or supervisor.
Scope
We interviewed responsible personnel to identify procedures relating to
financial management, the collection and distribution of backpay, controls
over capitalized and sensitive property, and the administration of T&A
practices. We reviewed applicable documentary evidence and performed a
physical inventory of capitalized and sensitive property including all
computer equipment.
Capitalized and Sensitive Property
General Accounting Office Standards for Internal Control in the
Federal Government, updated in November 1999, call for accurate and
timely recording of transactions and events. Capitalized property
consisted of one photocopy machine. Sensitive property included computer
equipment, non-capitalized photocopy equipment, one television, one video
cassette recorder, and two mail meters. We found that records accurately
reflected capitalized and non-computer related sensitive property.
The inventory of computer equipment, however, did not accurately
identify what equipment was assigned to Brooklyn, or location of the
equipment within the office. The inventory included central processing
units, monitors, and printers; it identified the name of the employee
assigned the equipment, a description of the equipment, serial number,
and, in most instances, a bar code number for each item. We found:
48 items were found, but were not in the office of the person shown
on the inventory;
3 items had an incorrect serial number;
5 items not on hand were reportedly sent to the computer support
contractor for repair or replacement;
5 items were not found;
42 items, mostly older equipment, were observed during our physical
inventory but were not on the inventory; and
1 laptop computer was not properly signed out.
The computer maintenance contractor did not maintain records
identifying computer equipment sent for repair in cases when the equipment
was to be returned, as opposed to replaced. Contractor representatives
agreed to develop procedures to properly inventory computer equipment.
The Computer Assistant maintained a sign-in/sign-out sheet for the two
laptop computers. She telephoned the employee in possession of the laptop
computer that was not properly signed out with instructions on the proper
procedure.
Maintaining Time and Attendance Records
General Accounting Office Policy and Procedures Manual for Guidance
of Federal Agencies, Title 6 - Pay, Leave, and Allowances (Title 6),
dated March 22, 1996, states that documents supporting T&A should be
completed and maintained. Examples of such documents include those for
establishing (1) work schedules, (2) flexiplace arrangements, (3) leave,
(4) overtime, (5) compensatory time, and (6) credit hours.
Work Schedules
Brooklyn generally maintained a work schedule for professional and
clerical employees working either a flex-time or compressed work schedule.
This schedule did not document supervisory approval. In addition,
documentation to work a compressed or flex-time schedule was not
consistently maintained. Documentation did not exist for 8 of 18 employees
working a compressed work schedule and 10 of 11 employees working a
flex-time schedule.
Flexiplace Arrangements
Sixteen Brooklyn employees participated in the work-at-home program.
None had written approval from an authorized Agency official.
Leave Slips
Brooklyn did not consistently use the Standard Form 71 (SF-71) to
document sick and annual leave usage. Of 50 sick and annual leave use
transactions judgmentally selected, we found the following results.
SF-71
Sick Leave
Annual Leave
Agreed with database information and was signed by employee and
supervisor
14
26
Not in file
29
18
Not signed by supervisor
6
5
Not signed by employee
1
0
Did not agree with T&A report
0
1
Advance Sick Leave
Agency policy requires that an employee submit medical certification
when requesting advance sick leave. The Regional Director can approve up
to 4 days. For 5 or more days, the Regional Director must submit a
memorandum to the Division head justifying the advance. The Division head
is to respond either approving or disapproving the request.
We identified 8 employees with advance sick leave balances and reviewed
25 related transactions of 4 employees to determine whether documentary
evidence was maintained and approval was granted in accordance with Agency
policy. Three of the four subject employees were advanced sick leave of 5
or more days. Advance sick leave for one employee was not supported by
medical certification. The advance sick leave of 5 days or more for one
employee was not supported by a memorandum to the Division head, and for
two employees, did not have a response from the Division head.
Advance Annual Leave
Annual leave may not be advanced in excess of what the employee could
accrue by the end of the pay year. We reviewed all advance annual leave
balances and determined that leave was not advanced in excess of the
amount allowed.
Other Time
Compensatory time was properly approved with a few exceptions and all
time was recorded in the Agency's payroll system. Brooklyn allowed two
employees to accrue more than 60 hours of compensatory time, both of whom
carried forward more than 40 hours to the next quarter. Agency policy
prohibits an employee from accruing more than 60 hours of compensatory
time and limits the amount that can be carried forward into future
quarters to 40 hours, unless the leave was earned during the last pay
period of the quarter.
Credit hours and overtime were not used.
Review and Approval of T&A Reports
Title 6 states that review and approval of T&A reports should be
made by the official, normally the immediate supervisor, most
knowledgeable of the time worked and absence of the employee. Since at
least March 1992, when Administrative Policy Circular (APC) 92-4 was
issued, Agency policy requires employees, timekeepers, and supervisors to
initial hard copy T&A reports. This policy was reaffirmed in APC
98-01, which was issued in response to an OIG finding that employees,
timekeepers, and supervisors frequently did not initial T&A reports as
required.
As a matter of practice, T&A reports were not initialed by the
timekeeper, employee, or supervisor. We reviewed 100 T&A reports and
found that none were initialed.
This review was done in accordance with the Quality Standards for
Inspections issued by the President's Council on Integrity and Efficiency.
cc: Richard A. Siegel